<html>
<title> - FAILURE TO VERIFY: CONCERNS REGARDING PPACA'S ELIGIBILITY SYSTEM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





    FAILURE TO VERIFY: CONCERNS REGARDING PPACA'S ELIGIBILITY SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2014

                               __________

                           Serial No. 113-161

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-550 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                       
                        
                        
                        
                        
  
  
  
  
  
  
  
  
  
  
  
  
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               JOHN D. DINGELL, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                LOIS CAPPS, California
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          JIM MATHESON, Utah
PHIL GINGREY, Georgia                GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            JOHN BARROW, Georgia
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky                  Islands
H. MORGAN GRIFFITH, Virginia         KATHY CASTOR, Florida
GUS M. BILIRAKIS, Florida            JOHN P. SARBANES, Maryland
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

















  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     2
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................     5

                               Witnesses

Kay Daly, Assistant Inspector General, Office of Audit Services, 
  Office of Inspector General, U.S. Department of Health and 
  Human Services; and Joyce Greenleaf, Regional Inspector 
  General, Office of Evaluation and Inspections, Office of 
  Inspector General, U.S. Department of Health and Human Services     6
    Prepared statement...........................................     8
    Answers to submitted questions...............................    66

                           Submitted Material

Article entitled, ``Obamacare Fails to Fail,'' The New York 
  Times, July 13, 2014, submitted by Ms. Schakowsky..............    39
Article entitled, ``7 predicted Obamacare disasters that never 
  happened,'' Vox, July 15, 2014, submitted by Ms. Schakowsky....    42
Article entitled, ``Sebelius Stands Firm Despite Calls to 
  Resign,'' The New York Times, October 16, 2013, submitted by 
  Mr. Pitts......................................................    53
Letter of June 4, 2014, from Mr. Upton to Mr. Waxman, submitted 
  by Mr. Pitts...................................................    56
Report entitled ``Marketplace Inconsistencies,'' by CMS, Center 
  for Consumer Information and Insurance Oversight (CCIIO).......    59

 
    FAILURE TO VERIFY: CONCERNS REGARDING PPACA'S ELIGIBILITY SYSTEM

                              ----------                              


                        WEDNESDAY, JULY 16, 2014

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Present: Representatives Pitts, Shimkus, Blackburn, 
Gingrey, McMorris Rodgers, Lance, Cassidy, Guthrie, Griffith, 
Bilirakis, Ellmers, Pallone, Schakowsky, Green, Barrow, Castor, 
and Waxman (ex officio).
    Staff Present: Clay Alspach, Chief Counsel, Health; Matt 
Bravo, Professional Staff Member; Leighton Brown, Press 
Assistant; Paul Edattel, Professional Staff Member, Health; 
Sydne Harwick, Legislative Clerk; Katie Novaria, Professional 
Staff Member, Health; Chris Pope, Fellow, Health; Chris Sarley, 
Policy Coordinator, Environment & Economy; Macey Sevcik, Press 
Assistant; Heidi Stirrup, Health Policy Coordinator; Ziky 
Ababiya, Minority Staff Assistant; Karen Lightfoot, Minority 
Communications Director and Senior Policy Advisor; and Matt 
Siegler, Minority Counsel.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. The subcommittee will come to order. The chair 
will recognize himself for an opening statement.
    On July 1st, 2014, the Department of Health and Human 
Services Office of the Inspector General released two 
disturbing reports regarding eligibility verification for 
individuals purchasing coverage in the exchanges. According to 
the reports, between October 1st and December 31st, 2013, OIG 
identified 2.9 million inconsistencies between applicants' 
information and data received through the Data Hub or from 
other data sources. One-third of these is related to income.
    Resolving these inconsistencies is often critical in 
determining eligibility for the nearly $1 trillion in exchange 
subsidies that are being spent over the course of the next 
decade, and this is why Congress passed a law requiring the 
Secretary of HHS to certify that processes were in place to 
verify eligibility before subsidies were made available. 
Secretary Sebelius made such a certification to Congress on 
January 1st, 2014. Yet one OIG report states, ``As of the first 
quarter of 2014, the Federal marketplace was unable to resolve 
about 2.6 million of the 2.9 million inconsistencies because 
the CMS eligibility system was not fully operational. It was 
unable to resolve inconsistencies, even if applicants submitted 
appropriate documentation.''
    It is clear that the eligibility system is far from 
operational. CMS reports that it now has in place an interim 
manual process to resolve inconsistencies, and it hopes to have 
a fully automated process later this summer.
    It is absolutely stunning that this administration, nearly 
a year after the launch of the exchanges and with $1 trillion 
on the line, has yet to build a functioning eligibility system. 
Given the administration's false promises when it comes to 
Affordable Care Act implementation, CMS' hope to have a fully 
automated process up and running later this summer deserves to 
be treated with skepticism.
    From telling Americans falsely that they could keep their 
health plan and doctors, to Secretary Sebelius' commitment that 
the exchanges would be ready to launch on October 1st, 
implementation of this law has been a series of broken 
promises. Additionally, this problem appears to be getting 
worse, not better. According to documents released by this 
committee, as of May 27, at least 4 million inconsistencies 
have been identified.
    These facts make it clear that the administration is taking 
a, ``shovel the money out the door first, verify later,'' 
approach when it comes to exchange subsidies. It is simply 
unacceptable that CMS does not yet have the internal controls 
necessary to validate Social Security numbers, citizenship, 
national status, income, and employer-sponsored coverage. 
Americans sending taxes to Washington don't deserve to have 
their money so blatantly disregarded by a Federal Government 
that is supposed to serve them.
    OIG has recommended that CMS, ``should develop and make 
public a plan on how and by what date the Federal marketplace 
will resolve inconsistencies.'' One has to wonder how long it 
will take to clear this backlog and whether proper internal 
controls will be in place to prevent this from happening again 
during the next open enrollment period this fall.
    One also has to wonder how the administration intends to 
claw back any improper subsidies that were given as a result of 
inaccurate information. Middle-class families could be left on 
the hook for thousands of dollars in payments back to the IRS 
as a result of this failure.
    My time has expired. I yield back. And now recognize the 
ranking member of the subcommittee, Mr. Pallone, 5 minutes for 
an opening statement.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    The Subcommittee will come to order.
    The Chair will recognize himself for an opening statement.
    On July 1, 2014, the Department of Health and Human 
Services Office of the Inspector General released two 
disturbing reports regarding eligibility verification for 
individuals purchasing coverage in the Exchanges.
    According to the reports, between October 1 and December 
31, 2013, OIG identified 2.9 million inconsistencies between 
applicants' information and data received through the Data Hub 
or from other data sources.
    One third of these related to income.
    Resolving these inconsistencies is often critical in 
determining eligibility for the nearly $1 trillion in exchange 
subsidies that are being spent over the course of the next 
decade.
    This is why Congress passed a law requiring the Secretary 
of HHS to certify that processes were in place to verify 
eligibility before subsides were made available.
    Secretary Sebelius made such a certification to Congress on 
January 1, 2014.
    Yet, one OIG report states, ``As of the first quarter of 
2014, the Federal marketplace was unable to resolve about 2.6 
million of 2.9 million inconsistencies because the CMS 
eligibility system was not fully operational. It was unable to 
resolve inconsistencies even if applicants submitted 
appropriate documentation.''
    It is clear that the eligibility system is far from 
operational. CMS reports that it now has in place an interim 
manual process to resolve inconsistencies, and it hopes to have 
a fully automated process later this summer.
    It is absolutely stunning that this Administration, nearly 
a year after launch of the exchanges and with $1 trillion on 
the line, has yet to build a functioning eligibility system.
    Given the Administration's false promises when it comes to 
Affordable Care Act implementation, CMS' hope to have a fully 
automated process up and running later this summer deserves to 
be treated with skepticism.
    From telling Americans falsely that they could keep their 
health plan and doctors to Secretary Sebelius' commitment that 
the exchanges would be ready to launch on October 1st, 
implementation of this law has been a series of broken 
promises.
    Additionally, this problem appears to be getting worse, not 
better. According to documents released by this Committee, as 
of May 27, at least four million inconsistencies had been 
identified.
    These facts make it clear that the Administration is taking 
a ``shovel the money out the door first, verify later'' 
approach when it comes to exchange subsidies.
    It is simply unacceptable that CMS does not yet have the 
internal controls necessary to validate Social Security 
numbers, citizenship, national status, income, and employer-
sponsored coverage. Americans sending taxes to Washington don't 
deserve to have their money so blatantly disregarded by a 
federal government that is supposed to serve them.
    OIG has recommended that CMS ``should develop and make 
public a plan on how and by what date the Federal marketplace 
will resolve inconsistencies.''
    But one has to wonder how long it will take to clear this 
backlog, and whether proper internal controls will be in place 
to prevent this from happening again during the next open 
enrollment period this fall.
    One also has to wonder how the Administration intends to 
``claw back'' any improper subsidies that were given as a 
result of inaccurate information. Middle class families could 
be left on the hook for thousands of dollars in payments back 
to the IRS as a result of this failure.
    I appreciate the Office of the Inspector General's work and 
would like to thank you for being here today to discuss the 
findings of these reports in more detail, and I yield back.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Let me welcome the Office of the Inspector General's 
representatives here today. The work you do is invaluable to 
our committee and Congress, and there is always a role for us 
to strive to do better so we can ensure that taxpayer dollars 
are well spent.
    But I think there are some important lessons I hope we can 
learn from today's hearing. The first and most important is the 
fact that a data inconsistency on a consumer's application does 
not equate to errors. In fact, nearly all of the cases of 
inconsistencies can be easily resolved. The second lesson is 
that we should use OIG to learn how we can strengthen our 
Federal programs, not as a political blunt object to mislead 
the American public.
    We get it. Republicans don't like Obamacare. In fact, they 
won't recognize one single benefit from the law, and they 
predicted one disaster after another, and none of them have 
come true. I respect my chairman a lot, but, I mean, all I kept 
hearing in his comments about how we are so worried about this 
subsidy. Well, this subsidy goes to middle-class people, not to 
poor people, not to rich people. I think it is, what, something 
between $25,000, $30,000 and up to maybe $80,000 or $90,000 for 
a family of four in order to get the subsidy. That is the 
middle class. That is the middle class that we are trying to 
preserve. These are the average Americans.
    Why are they so worried about a subsidy for middle-class 
people instead of worrying about the big corporations or the 
oil companies? I could have 10 hearings on all the subsidies 
for the oil companies, and God knows what they are getting away 
with. These are not the fat cat contributors. This is the 
average person.
    And the ACA is working. The results are in. Three 
independent surveys support this claim. During the law's first 
open enrollment period, 9.5 million previously uninsured 
Americans got health coverage, reducing the uninsured rate 
amongst working adults from 20 percent to 15 percent in less 
than a year. According to a Commonwealth Fund survey, the 
overwhelming majority of the newly ensured, including 74 
percent of Republicans, are satisfied with their coverage.
    Now, that doesn't mean the law is perfect. No one on my 
side of the aisle is arguing that. But we have had some 
technical hiccups with enrollment. The reports that OIG will 
discuss today, I believe, are a reflection of those challenges. 
We have learned how to improve the process. And this fall, the 
hope is to strengthen the system even further and capture 
millions more Americans who need healthcare coverage.
    But if Republicans really want to talk about taxpayer 
dollars being spent wisely, let's have that conversation. We 
can talk about Speaker Boehner's frivolous lawsuit against the 
President or the wasteful $3 billion being spent on this 
repetitive, unnecessary Benghazi fishing expedition. And then 
there is the $2.3 million they spent defending discrimination 
in the courts during the Defense of Marriage, or DOMA case.
    The House GOP is interested in wasting taxpayer dollars to 
score political points. The ACA, on the other hand, is helping 
people get access to health care, and it is saving lives. So I 
would just ask my colleagues to stop the political stunts, stop 
trying to dismantle the ACA's success, and come together with 
Democrats to strengthen and improve its historic benefits and 
protections. We are trying to help the middle class. That is 
what this is all about. And without that subsidy, they are not 
going to be able to get health insurance.
    So I would like to yield now 1 minute to Congressman Green 
from Texas.
    Mr. Green. Thank you, Chairman.
    I thank the ranking member for yielding.
    According to the recent report from the Commonwealth Fund, 
9.5 million additional adults ages 19 to 64 are now covered by 
insurance. Seventy-three percent of the people who bought 
health plans and 87 percent of those signed up for Medicaid 
said they were pleased with the new insurance. Even 74 percent 
of the newly insured Republicans like their plans.
    Mr. Chairman, there are certainly shortcomings in the 
Affordable Care Act both in policy and implementation, but as I 
always say, if you want something perfect, don't come to 
Congress or a legislative body. Yes, the 9.5 million newly 
insured and millions more are benefiting from reforms included 
in the law.
    It is long past time to move beyond political posturing and 
misinformation campaigns to get back to business, time we start 
working to improve the law in ways where there is broad 
agreement. The American people deserve better, and I hope to 
work with my colleagues to build on this success and make 
changes that best serve the public.
    And I yield back my time.
    Mr. Pallone. I yield now to the gentlewoman from Florida, 
Ms. Castor, the remainder.
    Ms. Castor. Well, thank you, Mr. Pallone.
    And thank you, Mr. Chairman, for calling this hearing on 
how we improve the Affordable Care Act for America's families.
    I appreciate the Inspector General's Office, all of the 
work you have done to help us identify where we need to 
improve.
    Why is this important? Millions and millions of Americans 
are depending on us. And I look at my home State of Florida. 
We, surprisingly, had 1 million Floridians sign up through the 
Federal marketplace. It is remarkable. But now we are going to 
face a different open enrollment period starting November 15th 
to February 15th. We have got to ensure that this is working 
for our families. So help us prioritize where we have to pay 
additional attention, help us make this better for America's 
families.
    Thank you, and I yield back.
    Mr. Pitts. The chair thanks the gentlelady.
    All members' written opening statements will be made a part 
of the record.
    [The information follows:]

                 Prepared statement of Hon. Fred Upton

    For months and even years, the alarms were sounding over 
the president's health care law that it was not ready for prime 
time and that it would not work for the American people. For 
the past nine months, since the start of the first open 
enrollment period, we have seen this play out in a broken and 
still-incomplete Web site, cancelled plans, rising costs, and 
false promises from the administration.
    The Office of Inspector General is before the subcommittee 
today to discuss important work that underscores some of the 
major problems that continue to plague this broken law. Two 
recent reports from the administration's own nonpartisan 
watchdog provide a preview of what the future of this law 
holds. These reports indicate that, despite assurances from the 
Secretary of Health and Human Services, the backend and 
verification systems for the health care exchanges is still not 
built. OIG has found that HHS failed to resolve nearly 2.6 
million of 2.9 million data inconsistencies as of February of 
this past year. This committee has uncovered that this number 
grew to more than 4 million by the end of May. What's worse, 
HHS still does not have a fully operational eligibility 
verification system in place although the systems should be the 
highest priority.
    The administration should never have gone live last fall in 
the first place without the Web site being structurally 
complete, and yet everyday Americans are left to endure the 
administration's incompetence. And, according to media reports, 
it seems the administration has made it a higher priority to 
fight bad publicity, than to actually fix the problems.
    Taxpayers could be on the hook for improper payments in a 
program that is estimated to spend $1 trillion over the next 
decade. Middle class families filing their taxes in 2015 could 
come to find out they owe the IRS thousands of dollars based on 
an inaccurate eligibility determination.
    Sadly, it is clear this administration has taken a ``spend 
first, verify later'' approach to this law, and it's taxpayer 
dollars that are on the line. Once again, ordinary Americans 
stand to suffer because of the administration's reckless 
rollout of this health care law and its disregard for taxpayer 
dollars.

    Mr. Pitts. On our panel today we have two witnesses, Ms. 
Kay Daly, Assistant Inspector General, Office of Audit 
Services, Office of Inspector General, U.S. Department of 
Health and Human Services, and Ms. Joyce Greenleaf, Regional 
Inspector General, Office of Evaluation and Inspections, Office 
of Inspector General, U.S. Department of Health and Human 
Services.
    Thank you for coming.
    While we have two witnesses on our panel, I understand 
their statements are one and the same, so I will ask Ms. Daly 
to present the joint statement, and then both witnesses will be 
available for questions from members.
    Ms. Daly, you will have 5 minutes to summarize your 
testimony. Your written testimony will be placed in the record. 
You are recognized for 5 minutes.

 STATEMENT OF KAY DALY, ASSISTANT INSPECTOR GENERAL, OFFICE OF 
AUDIT SERVICES, OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT OF 
 HEALTH AND HUMAN SERVICES; AND MS. JOYCE GREENLEAF, REGIONAL 
INSPECTOR GENERAL, OFFICE OF EVALUATION AND INSPECTIONS, OFFICE 
   OF INSPECTOR GENERAL, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Ms. Daly. Thank you and good morning Chairman Pitts, 
Ranking Member Pallone, and other distinguished members of the 
committee. Thank you for the opportunity to testify today about 
two new reports from the Department of Health and Human 
Services Office of Inspector General. These reports provide a 
first look at a critical component of the health insurance 
marketplaces that were established under the Affordable Care 
Act: their verification of enrollee eligibility.
    Accompanying me today is Joyce Greenleaf, our Regional 
Inspector General For Evaluation and Inspections. First, I will 
highlight our report, which responded to a congressional 
mandate to examine the effectiveness of enrollment procedures 
and safeguards. Then I will talk about our companion report, 
which addressed a specific risk area: the inconsistency 
resolution process.
    Our mandated work examined and directly tested internal 
controls at the Federal, California, and Connecticut 
marketplaces. These controls related to verifying the identity 
of applicants and application information, determining 
eligibility of applicants for enrollment in qualified health 
plans, and maintaining and updating enrollment data. Our period 
of review for that report was October through December of 2013.
    We concluded that the Federal, Connecticut, and California 
marketplaces had certain procedures in place to verify an 
applicant's information. However, not all internal controls 
were effective. The presence of an internal control deficiency 
does not necessarily mean that applicants were improperly 
enrolled in health plans or in insurance affordability 
programs. Other mechanisms exist that may remedy the internal 
control deficiency. These deficiencies in internal controls may 
have limited the marketplace's ability to prevent the use of 
inaccurate or fraudulent eligibility information.
    We recommended in this report that CMS and the Connecticut 
and California marketplaces take actions to improve internal 
control deficiencies. These include verifying the applicant's 
identity, determining the applicant's eligibility, and 
maintaining enrollment data.
    For the companion report, we analyzed from a national 
perspective how marketplaces resolved inconsistencies between 
applicant self-attested information and other data sources. We 
obtained data from the State marketplaces from October through 
December of 2013, and for the Federal marketplace we analyzed 
data through February of 2014.
    During those time periods, many marketplaces were unable to 
resolve most inconsistencies. The most common were related to 
citizenship and income. The Federal marketplace wasn't able to 
resolve 2.6 million of 2.9 million inconsistencies because the 
CMS eligibility system was not fully operational.
    The ability to resolve inconsistencies varied across the 
marketplaces. Seven state-based marketplaces reported that they 
were able to resolve those inconsistencies without delay.
    Now, inconsistencies do not necessarily indicate that an 
applicant provided inaccurate information, nor do 
inconsistencies equate to errors in enrollment in health plans 
or insurance affordability programs. However, marketplaces must 
resolve these inconsistencies to ensure eligibility is 
accurate.
    So, accordingly, we recommended that CMS develop a plan for 
resolving the inconsistencies in the Federal marketplace. We 
also recommended that CMS ensure that inconsistencies in State-
based marketplaces were resolved according to the Federal 
requirements.
    These are the first two reports in a series related to 
operations of the marketplaces. We have a substantial body of 
work underway and planned to ensure that taxpayer dollars are 
spent for their intended purposes in a system that operates 
effectively and is secure. This work will examine additional 
critical issues related to eligibility systems, payment 
accuracy, contract oversight, data security, and consumer 
protection.
    I want to thank you all for your interest and support for 
the OIG's mission and for the opportunity to discuss our work 
today. We are happy to answer any questions you may have.
    Mr. Pitts. The chair thanks the gentlelady for her 
testimony.
    [The prepared joint statement of Ms. Daly and Ms. Greenleaf 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Pitts. We will now begin questions and answers, and I 
will recognize myself 5 minutes for that purpose.
    Ms. Daly, on January 1st, 2014, Secretary Sebelius 
certified to Congress that the exchanges are verifying 
eligibility. Federal law required this certification before 
exchange subsidies could be made available. OIG's report 
states, ``As of the first quarter of 2014, the Federal 
marketplace was unable to resolve about 2.6 million of 2.9 
million inconsistencies because the CMS eligibility system was 
not fully operational.''
    Based on these facts, isn't it true that HHS made the 
certification to Congress before the eligibility system was 
fully operational?
    Ms. Daly. Chairman Pitts, we of course looked at the 
Secretary's report purely for informational purposes and didn't 
really analyze it to understand more about what was behind 
that, what the Secretary had available for making that 
certification, so I really can't speak directly to your 
question. I am sorry.
    Mr. Pitts. Although your statement says ``because the CMS 
eligibility system was not fully operational.'' Do you stand by 
that statement?
    Ms. Daly. Oh, absolutely, sir.
    Mr. Pitts. All right. Has CMS provided the OIG a firm 
timetable when their eligibility verification system will be 
fully operational?
    Ms. Daly. No, sir, not to my knowledge.
    Mr. Pitts. Is it possible that these inconsistencies will 
not be resolved by the next open enrollment period, which 
starts in November of 2014?
    Ms. Daly. Well, we have work ongoing in that area right 
now, but I really don't know about any definite timetable, nor 
when they may be fully operational at that time.
    Mr. Pitts. Ms. Greenleaf, did you want to add to that?
    Ms. Greenleaf. I would add that in CMS' comments to our 
report they indicated that they had implemented an interim 
manual system to address the inconsistencies that they were 
unable to address during the period of our report, and CMS 
reported to us that it would have an automated system by the 
end of the summer. We have not followed up as yet, but we do 
have a tracking system in place to monitor the implementation 
of the recommendations.
    Mr. Pitts. Thank you. The OIG is focusing on several areas 
of work to conduct oversight over spending under the Affordable 
Care Act. Understanding that much of the scope of the work is 
fluid, can you highlight some of the specific areas of work 
your office intends to focus on?
    Ms. Daly. I would be glad to do so, sir. Our office has 
embarked on a strategic approach to looking at the 
marketplaces, and we have developed a strategy we refer to as 
PECS, and that stands for payment accuracy, eligibility, 
contracting, and security. And with that, we have some works 
planned and already underway looking at payment accuracy, how 
accurate are the payments that are going out to insurers, and 
also we are starting work looking at payments within the 
context of providing subsidies and things of that nature.
    Further, with our eligibility work, this is just the first 
and other jobs that we have planned and underway to look at 
eligibility. We started work at other State-based marketplaces 
to understand what their systems were and then doing additional 
work at the Federal marketplace also.
    For contracting, we are looking at several aspects of the 
contracting that were involved in the development of 
HealthCare.gov. And then finally with security, we are looking 
at the information security that is designed to protect the 
information in these marketplaces.
    Mr. Pitts. All right. The OIG report states that the 
administration did not have effective controls in place to 
perform basic tasks. Can you elaborate on this and tell us what 
HHS has done to date to alleviate this problem, either one of 
you?
    Ms. Daly. Well, I would be glad to talk about some of the 
issues that were in our mandated report. For the Federal 
marketplace, we found that some Social Security numbers were 
not always validated through the Social Security 
Administration, and CMS has advised that they are following up 
on these issues and trying to identify any particular issues 
that were causing that from the systemic approach.
    With that, also there were the inconsistencies in 
eligibility data that we had talked about, and we have already 
identified that they said they had put in an interim system and 
were continuing to address those inconsistencies and that a 
more formal process will be in place later.
    Last, we saw that there was not the system functionality to 
allow enrollees to update their information that was in the 
system. CMS advised us in agency comments that they had taken 
steps to allow the functionality so that that information could 
be updated. So we have not had a chance to go back and look at 
how well that is functioning at this time.
    Mr. Pitts. Ms. Greenleaf, can you elaborate a little?
    Ms. Greenleaf. I would just reiterate what I said 
previously regarding the inconsistencies. That was the priority 
concern in the report that dealt with the inconsistencies, and 
we called on CMS to fix that and make public a plan, and we 
will be monitoring their response to that through our formal 
tracking system.
    Mr. Pitts. My time has expired.
    The chair recognizes the ranking member, Mr. Pallone, 5 
minutes for questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    It is not a surprise anymore that my Republican colleagues 
never want to talk about the good news with the Affordable Care 
Act. Eight million signed up for private plans, 6.7 million 
newly enrolled in Medicaid, 3 million young adults on their 
parents' plans. The list goes on.
    For years now, the GOP have ignored the financial 
assistance available through the marketplaces. They put out 
misleading analyses claiming massive premium increases, and 
they have never once admitted that the vast majority of 
enrollees will qualify for assistance and that coverage will 
become extremely affordable.
    But here are some facts. This year, tax credits cut the 
average enrollee premium by 76 percent. The average premium 
consumers are actually paying for dependable comprehensive 
coverage is $82 per month. Seventy percent of people getting 
financial assistance pay less than $100 a month. Fifty percent 
pay less than $50 per month.
    And this is incredible news, and that is why the 
Republicans of course don't want to talk about it. Instead, 
they claim there is widespread fraud in who is getting the 
financial assistance. And the reports our witnesses are 
discussing today address the eligibility checks on the front 
end. And as we have heard, an inconsistency does not 
necessarily mean an individual is getting an incorrect subsidy.
    So I will say, Ms. Greenleaf, but whoever can answer, isn't 
it correct that your report states, ``Inconsistencies do not 
necessarily indicate that an applicant provided inaccurate 
information or is enrolled in a qualified health plan or is 
receiving financial assistance inappropriately?''
    Ms. Greenleaf. That is correct. Inconsistencies can occur 
for both eligible and ineligible applicants.
    Mr. Pallone. Thank you.
    An inconsistency on an application should not be a 
surprise. Automatically checking dozens of pieces of 
application data against a variety of Federal databases is not 
a simple thing. In fact, a family of 4 could generate 21 
different inconsistencies on their application. And that is why 
the lead contractor responsible for resolving these 
inconsistencies said he was not surprised by the number of 
inconsistencies.
    If the consumer includes a hyphen in their name on their 
application which does not appear in Federal databases, that 
could generate an inconsistency. If the consumer had recently 
moved, that might generate an inconsistency. But those are 
clearly not examples of fraud or misrepresentation. They are 
harmless. Similarly, with regard to income, the marketplace 
checks individual income off of 2012 tax data, so it would not 
be a surprise if their 2014 income data was different than 
2012.
    Again, Ms. Greenleaf, isn't it true that an income 
inconsistency does not necessarily mean an individual is 
getting too much or too little financial assistance?
    Ms. Greenleaf. It doesn't necessarily mean that, no. As I 
mentioned previously, both eligible and ineligible applicants 
can have inconsistencies, and the law anticipated the existence 
of inconsistencies. What is concerning is the number of 
unresolved inconsistencies.
    Mr. Pallone. OK. Now, again, CMS has resolved more than 
460,000 inconsistencies and has a process in place to resolve 
the remaining inconsistencies this summer. So, Ms. Greenleaf, 
CMS concurred with your recommendation to make public their 
plan to resolve inconsistencies. Isn't that correct?
    Ms. Greenleaf. We have not received CMS' official response 
outside of what is in the actual report yet, so they have a 
certain amount of time to respond to the recommendations 
officially. In its comments to our report, they did indicate 
that the interim manual system will fully automate later this 
summer, so we will be monitoring that closely through our 
formal tracking system.
    Mr. Pallone. And isn't it correct that in their response to 
your recommendations they wrote, and I quote, ``The FFM now has 
in place an interim manual process that allows it to reconcile 
inconsistencies and plans to implement the automated 
functionality this summer''?
    Ms. Greenleaf. CMS did say that in its response to our 
report.
    Mr. Pallone. I am just pleased that the IG is monitoring 
the agency's work, but the progress CMS has made to address 
these issues is important.
    And I guess, look, I am just so frustrated by the fact that 
the Republicans are ignoring all this in order to score 
political points. I mean, again, we are talking about middle-
class people here. We are talking about someone who is trying 
to fill out a form. We are talking about people whose income 
is, what, $25,000, $30,000 to $80,000 or $90,000 for a family 
of four. This is the middle class that supposedly all of us 
want to build and provide a decent healthcare benefit package 
for.
    I am not saying we shouldn't have the hearing, obviously, 
but I just think that there is so much emphasis on the GOP side 
on the fact that some average person is going to commit fraud, 
and that is not the case here. This is not a huge problem that 
is being presented.
    Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman.
    Now recognize the gentlelady from North Carolina, Mrs. 
Ellmers, 5 minutes for questions.
    Mrs. Ellmers. Thank you, Mr. Chairman.
    And thank you, Ms. Daly and Ms. Greenleaf, for being with 
us today.
    Your study shows that 85 percent have not been resolved, 
and that is an incredibly large number of applicants' 
application process that is in question. And that certainly 
doesn't mean that there was fraud perpetrated. It just means 
that there are inconsistencies and those inconsistencies need 
to be addressed. And it goes to the larger problem of 
eligibility and how are we ensuring the American taxpayers 
their hard-earned dollars are being utilized to the best 
possible. And we want to see everyone have affordable health 
care. We need to make sure that it is done right. And starting 
at this point is a good place.
    So I guess what I need to know is, what happens now? I 
mean, what happens? I know that you said, Ms. Daly, you talked 
about a formal tracking system going into place, which that is 
very, very good, making sure that payments that are going out 
are accurate and being accounted for. But then in relation to 
those who might be in a situation of getting subsidies that 
might not have qualified, how can we address that issue? I am 
glad that there is a tracking system in place for the payments, 
but how is that going to help us get to the bottom of the 
issue?
    And, Ms. Greenleaf, I would like for you to weigh in as 
well, if you would like.
    Ms. Daly. Well, thank you very much for that question.
    I think the inconsistency periods, that was set up as part 
of the law and the regulations surrounding ACA because, indeed, 
there can be some variations in some of the information. So it 
gives an opportunity to try to clarify all that.
    During that period, people are conditionally enrolled in 
the program until that is cleared up. I think the rules state 
that if there does turn out to be a case where perhaps someone 
may have gotten a subsidy that they were not entitled to of 
whatever nature, financial assistance of whatever nature, there 
are plans in place for obtaining resolution on that. So that, 
for example, with the tax credit, that would be worked out when 
the consumer files his tax return next year, and this is all 
supposed to be reconciled at that point in time.
    Mrs. Ellmers. How would it be reconciled, though, because 
basically aren't they paying a certain premium amount or 
getting a certain tax credit at that level? Because would they 
or would they not be paying more for their healthcare coverage 
if there is an inconsistency that is found to be accurate, 
essentially meaning that they did find the inconsistency? How 
do you make up that difference?
    Ms. Greenleaf.
    Ms. Greenleaf. I think that happens, it is my 
understanding, through the reconciliation process with the IRS. 
So it could be that some applicants would be owed money and 
others would in fact owe money. So it could be determined 
either way. They come fully enrolled during the 90-day 
inconsistency period, after which a redetermination is supposed 
to be made.
    Mrs. Ellmers. OK. And then I guess there again, from what 
you are saying, the IRS then becomes the enforcing body that 
will make sure that this happens.
    Ms. Daly. That is my understanding, yes.
    Mrs. Ellmers. OK.
    Well, thank you.
    And I really, Mr. Chairman, I don't have any more 
questions, so I yield back the remainder of my time.
    Mr. Pitts. The chair thanks the gentlelady.
    Now recognize the gentleman from Texas, Mr. Green, 5 
minutes for questions.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member 
Pallone and our witnesses for their testimony today.
    I am going to start by echoing my colleagues: 
Inconsistencies are not the same as errors or fraud. It is 
incorrect and deliberately misleading to refer to them that 
way. According to John Lau, vice president of Serco, the 
contractor responsible for obtaining the necessary information 
to address enrollment inconsistencies, 99 percent of the 
inconsistencies in marketplace applications are innocuous.
    And it is also disingenuous to suggest such inconsistencies 
are specific to the Affordable Care Act. Federal and State 
programs where eligibility must be verified, such as Medicaid, 
all face the challenges of reconciling inconsistent data in 
applications. However, in Medicaid eligible applicants are put 
on a waiting list while the discrepancy is sorted out, forced 
to go without health coverage for however long it takes. Under 
the ACA, Americans can enroll and get coverage immediately.
    The inconsistencies, which I repeat are 99 percent 
innocuous in ACA applications, are going to be resolved at some 
point, but we feel it is better for people to get coverage 
after applying instead of going on a waiting list indefinitely.
    Ms. Daly and Ms. Greenleaf, other Federal programs have to 
verify individuals' eligibility through an application process. 
Isn't this correct?
    Ms. Daly. Yes, sir.
    Mr. Green. OK. So inconsistencies in applications are not 
unique to exchanges created under the Affordable Care Act?
    Ms. Daly. Yes, sir.
    Mr. Green. Thank you.
    In the Medicaid program, eligible applicants are put on a 
waiting list until their inconsistency is fixed and an 
applicant can access coverage. That is partly why we have a 
massive backlog in Medicaid applications in States around the 
country. That is not a solution at all. Given the unknown 
nature of health care, you never know when you will need it. It 
is long overdue that we move beyond efforts to undermine, 
repeal, or create unwarranted alarm for political gain about 
the ACA and get back to the business of serving the American 
people.
    I have some time left. Can you give me examples of other 
programs that maybe the GAO has investigated that you go back 
in and have inconsistencies?
    Ms. Daly. I am sorry, but just nothing is coming to mind at 
this point in time. But I would be glad to get back with you on 
that.
    Mr. Green. OK. If you would and share it.
    Ms. Greenleaf. Nothing comes to my mind either. Thank you. 
We can get back to you if we identify anything.
    Mr. Green. Were there any specific recommendations that 
either of your agencies made to Health and Human Services to 
correct some of the problems?
    Ms. Daly. In our report, sir, we had identified a number of 
weaknesses at both the Federal, Connecticut, and California 
marketplaces, and we made specific recommendations to fix the 
underlying systems, of course, that were prompting such errors, 
and then we also asked them to fix the specific cases that we 
had found. And they were generally amenable to doing so, so 
that was very helpful.
    Mr. Green. Have you followed up with that to see both on 
the national exchange and the Connecticut and California if 
that is what they are doing if they agreed to correct those 
inconsistencies?
    Ms. Daly. Well, we do have work that we are getting 
underway right now to do additional work at the Federal 
exchange to look at some other issues there and plan, as part 
of that, to do additional follow-up on the status of the 
recommendations we had made in this report.
    Mr. Green. OK. So this is not something that we are going 
to sweep under the rug, we want to deal with it, because, 
again, the ACA is a valuable tool for people in our country to 
get health care, and we want to make sure it is done right. And 
I appreciate your agencies for doing that, and hopefully 
Congress will get back to what we want to do, which is make 
sure it gets done right.
    Mr. Chairman, I will yield back my time.
    Mr. Pitts. The chair thanks the gentleman.
    I now recognize the gentleman from New Jersey, Mr. Lance, 5 
minutes for questions.
    Mr. Lance. Thank you very much, Mr. Chairman.
    This committee has spent a great deal of time and effort 
discussing the inadequacies of the healthcare law's rollout. 
Some people believe that the worse is behind us and many of the 
most important serious problems have been resolved. However, I 
believe, as your report has pointed out, many of our 
constituents may be in for a rude awakening when their tax bill 
comes due.
    I am also greatly concerned, and this is not an area for 
you to address, but I wish to place on the record the fact that 
there is the significant constitutional and statutory issue 
regarding subsidies for the Federal exchange as opposed to 
subsidies for the State exchanges. That issue will be resolved 
in the courts. I did ask Secretary Sebelius about that very 
significant matter at a previous hearing, and let me predict 
that that case is likely to go to the Supreme Court, although 
it is now in the various circuits.
    Regarding the issue this morning, it is my understanding 
that you did not review certain eligibility issues because you 
did not have access to Federal taxpayer information at the time 
of your audit. Would you please update the committee on your 
access to that information now? Ms. Daly.
    Ms. Daly. Yes, sir. Yes, as we were performing our work, we 
learned that you could not have the access to the Federal 
taxpayer data. So we immediately began to discuss the issue 
with IRS and have worked very closely with them. They have been 
very agreeable in helping us sort through the issues.
    At this time we have been advised that we can access the 
Federal taxpayer information that is provided to the Federal 
marketplace, and so that is going to be one of the key areas we 
are following up on to do the similar work that we had done 
looking at other aspects of determining eligibility to also 
look at verifying the income. And with that, we are also 
continuing to discuss with IRS obtaining access to the state 
marketplaces, too.
    Mr. Lance. And do either of those matters require statutory 
change or can you do that administratively?
    Ms. Daly. Well, to date, we have had success in doing that 
administratively, but if it looks like we may need to have a 
statutory change, we would be glad to get back and work with 
you and your staff to try to bring about such a change.
    Mr. Lance. Do you have a timeframe, Ms. Daly, when you will 
receive that information regarding both the Federal exchange 
and the state exchanges with the IRS?
    Ms. Daly. Well, for the Federal exchange we have received 
the authorization to go in and review that. We are just going 
through some more logistic issues of ensuring that we have 
appropriate safeguards in place to protect that taxpayer data 
while it is in our possession.
    And for the timeframe, for completing the work on the 
Federal exchange, I believe it is in the spring of 2015 we 
should have the results out on that assessment there. And with 
the States, we are continuing to work with them, so I can't 
provide you with an assessment right now of when that may be 
available.
    Mr. Lance. Thank you. I hope you are able to provide us 
with that when you do get that information.
    Regarding the fact that the Federal exchange information 
with the IRS may be available in the spring of 2015, next 
spring, I wish to make sure that my constituents understand the 
implications of these problems that were highlighted in your 
report. If the eligibility verification system produces a 
determination for an applicant with an inaccurate exchange 
subsidy, am I accurate that the IRS is required by law to claw 
back that money from the individual?
    Ms. Daly. Sir, if you are referring to the tax credits and 
so forth, yes, sir, that would be part of the IRS' 
responsibility.
    And I would also like, if I could, to take a second to 
clarify that our work that we plan to be doing at the Federal 
exchange, that is when we would have completed the work, would 
be in the spring of 2015, so we can provide the results at that 
time to the august members of this body.
    Mr. Lance. Thank you. I am not suggesting necessarily that 
there is fraud on the part of those who may have provided 
inaccurate information. I would imagine in most cases it is not 
a matter of fraud, it simply may be a matter of inaccurate 
information. And all of us as human, we all make mistakes.
    I do believe that there is a potential that there are going 
to be many unhappy surprises come tax time next spring, in the 
spring of 2015. Only time will tell. But certainly that 
impresses me as being a possibility.
    Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman.
    Now recognize the gentlelady from Illinois, Ms. Schakowsky, 
5 minutes for questions.
    Ms. Schakowsky. Thank you. Mr. Chairman, I have a statement 
and a request to make. I hope I will still have time for some 
questions.
    But we have had a lot of good news about the Affordable 
Care Act in recent weeks: 8 million enrolled in private 
coverage, 6.7 million enrolled in Medicaid, the number of 
uninsured dropping by 10 million people, and the rate of 
uninsured in states around the country dropping by 30, 40, even 
50 percent in just 1 year. Actually that is pretty amazing. And 
I want to put two articles in the record that discuss some of 
this good news and what I believe is the warped Republican 
reaction to it.
    The first is a column in the New York Times. The columnist 
writes, ``What you get whenever you suggest that things are 
going OK with the ACA, there is an outpouring not so much of 
disagreement as of fury. People get red in the face, angry, 
practically to the point of incoherence over the suggestion 
that it is not a disaster.'' He goes on to say, ``I suspect 
there is now an element of shame if this thing is actually 
working. Everyone who yelled about how it would be a disaster 
ends up looking fairly stupid.''
    The next piece I want to highlight is from health reporter 
Sarah Kliff, who listed out, ``7 Predicted Obamacare Disasters 
That Never Happened.'' Here is the list. One, the Web site will 
never work. Two, nobody wants to buy coverage. Three, the ACA 
would not meet enrollment goals. Four, only people who already 
had coverage are signing up. Five, there would be a net loss of 
insurance. Six, premiums will skyrocket. And finally, seven, 
that the law just won't work. People won't get doctors' visits, 
insurers will drop out, et cetera.
    And, Mr. Chairman, each and every one of these predictions 
has proven flat wrong. Ten million people have gained coverage 
this year because of the ACA. Surveys indicate that they like 
their coverage. There are none of the increased wait times or 
skyrocketing premiums Republicans claimed, especially when you 
factor in the financial assistance that is available. More and 
more insurers are participating in the marketplaces next year, 
increasing choice and competition.
    So, Mr. Chairman, I would like to put these two articles in 
the record.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Schakowsky. Thank you.
    And I just want to say about this hearing, if this were a 
good faith effort to really find and fix some of the problems 
that are in the Affordable Care Act, I would be more than happy 
to fully participate in every way in those kinds of efforts. 
Anybody knows that such an ambitious piece of legislation is 
going to have to be tweaked. I don't think anybody would 
disagree that there aren't ways that we can make this better. 
But time after time in this committee what we do is look for 
ways to simply attack the law, suggesting that it is just 
horrendous, it is unworkable, when we know that it is helping 
millions and millions of people. Seventy-four percent of 
Republicans who have signed up said they like that.
    I would say that is pretty good. I mean, there is still a 
quarter of the people who say that they are not happy. Let's 
figure out why and try and make that better. But I don't feel 
like this is the spirit of these hearings. We are talking now 
about lawsuits that are going to go to the Supreme Court. We 
could as a Congress, as a committee, address some of these 
problems and actually suggest changes that we could vote out 
and then present to the full House of Representatives and make 
those things better and work.
    Our ranking member expressed frustration, and I feel that, 
too. The reason that I am in public service is because my hope 
was that at the end of my career I could say that I helped 
provide health care to all Americans. What could be more basic 
than wanting to do that? Is that really what my colleagues 
across the aisle are looking for or is it to nitpick and 
ultimately sue?
    I mean, think about this lawsuit that is being considered 
today. We are talking about the President being sued for not 
enforcing the Affordable Care Act, that hated law by the 
Republicans, for not enforcing it fully, and for not enforcing, 
they are saying, a provision that perhaps was the most hated, 
the employer mandate. So I am just really, really confused.
    I am sorry. I appreciate the witnesses. I appreciate that 
you are looking into these problems and trying to help us solve 
them. That, to me, ought to be the goal of all of us here.
    And I yield back.
    Mr. Pitts. The chair thanks the gentlelady.
    And now recognize the gentleman from Kentucky, Mr. Guthrie, 
5 minutes for questions.
    Mr. Guthrie. Thank you, Mr. Chairman. I thank the ranking 
member. And I thank the witnesses for being here today.
    It is not just providing the information that has to be 
checked as well. I have heard from multiple groups that 
represent employers that haven't been notified a single time by 
CMS, as required by law, that an employee has received an 
advanceable premium tax credit. And I understand how the 
process is supposed to work is that CMS should be verifying up 
front whether the employee has access to affordable coverage 
prior to authorizing a subsidy, and to me, this step is 
critical. As we know, certain coverage offered by an employer 
would make individuals ineligible for tax credits.
    Do you see how this process was working? Or was it working? 
My understanding, employers are not being contacted to see if 
they offer affordable coverage.
    Ms. Daly. Well, yes, sir, that was part of the audit work 
that we did in performing our tests, and as part of that, of 
course, it varied across the marketplaces how that worked. For 
the Federal marketplace, they were checking other Federal 
organizations such as to determine whether there was coverage 
offered for, like with OPM, with the Department of Defense, and 
other places that offer health insurance. For other cases, 
there would be attestation, bringing in information from the 
employer to do that check itself.
    Mr. Guthrie. Is that happening the way it should be 
happening? I know what is supposed to happen. How is it 
happening? Yes, I am sorry.
    Ms. Daly. No, perfectly fine. No, that is actually how it 
is happening now because the issue is that there is no national 
database in which you could quickly go check, so that was the 
approach that was taken.
    Mr. Guthrie. Well, the problem is, if it is done 
inaccurately, then employers, as a couple of my colleagues have 
said, then employees will be receiving thousands of dollars of 
inaccurate tax credits, and they will be required, as we 
established earlier, to pay it back.
    I read the report, too, I went to the report, and I 
understand what you are saying, they were trying to make this 
provision work, but it doesn't seem to have a good way to do 
it, and therefore we are going to have people being ineligible 
to receive credits they are receiving, and they are going to 
have to pay it back. Like I said, not in any malice are they 
doing it. They are just following, hey, I can sign up for 
health care. I have heard it in on the TV, radio, if you are in 
Kentucky, see it on billboards, and they go sign up, and if it 
is not verified, then later on they will have to pay back.
    And I said, they are not doing it on purpose, but that can 
happen to them, and it is a lot of money to have to pay back at 
one time when they find that.
    So as we move forward, you are doing further tests, I think 
that is an area you really need to look at. Do you have, Ms. 
Greenleaf, any comments on that process?
    Ms. Greenleaf. I don't have anything to add to that.
    Mr. Guthrie. OK. Well, thank you, and I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    Now recognize the vice chair of the full committee, Mrs. 
Blackburn, 5 minutes for questions.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    I want to thank you all for being here. We have got an 
interesting hearing going on downstairs also, as you all are 
probably aware, with the problems with the HHS CDC labs, et 
cetera. So I have been back and forth from that.
    I think that as we talk about this verification system it 
is important to remind everybody that Secretary Sebelius, on 
January 1, 2014, certified, verified that the exchanges were 
indeed verifying eligibility. And while the Secretary certified 
a verification system, there is still no real system in place. 
And even HHS, the watchdog, reports that the administration 
does not have effective controls in place to perform basic 
tasks, such as validating Social Security numbers, correctly 
identifying applicants, and verifying citizenship. And, again, 
this has not been corrected.
    So for some of us who have lived through some of the 
government-run healthcare programs, and for Mr. Pallone's 
benefit I always have to bring up TennCare, because it thrills 
him when I bring up TennCare and the failed experiment in 
Tennessee with government-run health care. And if Congressman 
Green wanted examples of inconsistencies and how they were or 
were not dealt with, I can give him a laundry list. And so I am 
sure Mr. Pallone will have him come talk to me about those.
    But I find it so curious, and Ms. Daly, I will come to you, 
how do you certify a verification system when there really 
isn't a verification system in place, and what are the 
detailed, step-by-step components of this verified, certified 
verification system?
    Ms. Daly. OK. Well, with that the Secretary was responsible 
for providing such a certification on the report--I am sorry, 
on the system that was in place--and she did indeed provide 
one. Now, we haven't reviewed that report in detail. We did use 
it for informational purposes to learn more about the 
regulations and law and so forth that was in there. So I can't 
really speak to what the Secretary relied on or used for making 
such a certification.
    Mrs. Blackburn. Well, let me ask you this. Ms. Greenleaf, 
does it make sense that you would certify a verification system 
when you didn't have a verification system?
    Ms. Greenleaf. I am not familiar with the process that the 
Secretary used to take a look at that system.
    Mrs. Blackburn. So what you are telling me is there is no 
standard operating procedure or there are no benchmarks, there 
are no written expectations for what the system will be. Is 
that correct, Ms. Greenleaf?
    Ms. Greenleaf. I am not familiar with what the benchmarks 
or systems for operation would be for that.
    Mrs. Blackburn. Ms. Daly.
    Ms. Daly. Yes, Congresswoman. Yes, there are regulations 
that are in place that went through the full vetting process 
that all Federal regulations go through for determining what is 
appropriate to have in such a system. They help in designing 
the system.
    Mrs. Blackburn. OK. So you have got regulations.
    Ms. Daly. Yes.
    Mrs. Blackburn. Do you have a plan for a full end-to-end 
system for verification processing?
    Mrs. Blackburn. There was a plan that was put in place for 
determining the system.
    Mrs. Blackburn. Is it active and operational?
    Ms. Daly. Well, there is a system that is operational at 
this time.
    Mrs. Blackburn. Is it functioning?
    Ms. Daly. Our report identified that some of the controls 
in that system were functioning as they were planned to do so 
within the----
    Mrs. Blackburn. Some were?
    Ms. Daly. Some were, some were not.
    Mrs. Blackburn. OK. So still, they don't have their 
verifications processes in place end to end?
    Ms. Daly. That would be fair, yes, because we identified 
some that weren't operating as they should at that point in 
time.
    Mrs. Blackburn. So as long as we have that systemic 
failure, we cannot certify that the subsidies are working 
appropriately and people that are receiving taxpayer money--and 
this is something, I think, everybody needs to remember. This 
is not Federal Government money that is making the subsidies. 
It is taxpayer money that is sent to the Federal Government by 
hard-working taxpayers that is going into these subsidies, into 
a system that does not have a verification process in place end 
to end.
    In Tennessee, when it didn't work, Democrat governor had to 
come in and remove 300,000 people from the program--300,000. 
Now, you say that times 50, and you see the problems we are 
going to be up against because we don't know who is getting the 
money.
    I yield back.
    Mr. Pitts. The chair thanks the gentlelady.
    Now recognize the gentleman from Virginia, Mr. Griffith, 5 
minutes for questions.
    Mr. Griffith. Ms. Daly, I am going to pick up a little bit 
where Mrs. Blackburn left off, and appreciate her questions. 
The administration, when dealing with criticisms about the 
implementation of the Web site, likes to come back and say, 
well, it is better now, and in October they did not have a 
fully operational back-end eligibility system. And yes or no, 
based on your testimony here today, it sounds like to me they 
do not currently have a fully operational back-end eligibility 
system, isn't that correct, yes or no?
    Ms. Daly. It depends on the time. The timeframe that we 
looked at covered the period through December of 2013, so that 
is what we focused on.
    Mr. Griffith. OK. But you indicated that some were working 
and some weren't, but it is not working right now completely, 
isn't that correct?
    Ms. Daly. I can't speak to what is working right now, sir. 
I am sorry.
    Mr. Griffith. All right. But if they did have a system, you 
wouldn't have expected the document from CMS to have been 
released last month indicating the number of individuals 
enrolled in the exchange plan. And when the committee received 
that document, if you could read the part, I believe it has 
been given to you, or Ms. Greenleaf, on page 3 of that document 
provided by CMS to the committee. And that last statement says, 
if you would read that for us, please?
    Ms. Daly. Yes, sir, I did receive that document, and I just 
wanted to acknowledge that I have not had a chance to analyze 
this, and these aren't the IG's data, by any means. But I would 
be glad to read it for you.
    Mr. Griffith. Yes, ma'am.
    Ms. Daly. ``Current data indicates that 2.1 million people 
who are enrolled in a qualified health plan, or QHP, as it 
states on the document, are affected by one or more 
inconsistency.''
    Mr. Griffith. All right. Now, if there was in fact a fully 
operational back-end eligibility system on January 1, we should 
not have this problem, isn't that correct, yes or no? On 
January 1.
    Ms. Daly. I would say that that would be a fair statement, 
that we would have a fully operational system on January 1, and 
our work showed that that was not in place.
    Mr. Griffith. That was not in place. And so then when 
Secretary Sebelius certified to Congress that that system did 
in fact work, she would have been mistaken, isn't that correct?
    Ms. Daly. I really can't respond to that.
    Mr. Griffith. I am not asking you whether she was doing 
anything intentional or whether she was given bad information. 
I am just saying she said it worked, it didn't work, you know 
it doesn't work, therefore she had to be mistaken, isn't that 
correct?
    Ms. Daly. Well, I think the issue is that the----
    Mr. Griffith. It is yes or no, either she was mistaken or 
she was correct. If she was correct, it worked fine. You have 
already told us it didn't work fine, so the answer should be 
yes, shouldn't it?
    Ms. Daly. Well, I think what----
    Mr. Griffith. I know you don't want to say she was 
mistaken. But wasn't she mistaken?
    Ms. Daly. Well, I would have to read very carefully how 
that certification was worded. Quite frankly, I have not done 
so.
    Mr. Griffith. All right. That being said, let me take a 
minute, Mr. Chairman, if I might, to respond to some of the 
things that were said earlier about Obamacare not being a 
disaster.
    My constituents feel it is a disaster. Let me go through a 
few of the things that were raised in the point by the 
gentlelady previously.
    Talking about the suit for the President, she indicated 
that we were suing the President for not going forward with 
Obamacare in parts that we didn't care for. While that is true, 
the real reason for the suit is that the President is not 
faithfully executing the laws passed by Congress.
    Whether I like the law or not, the President ought to 
execute the laws passed by Congress and not suspend the law and 
then re-insert his own legislation into that.
    Further, I would say, Mr. Chairman, she said that, you 
know, we could fix it. I would submit that Dr. Frankenstein 
couldn't fix his monster. We are not capable of fixing 
Obamacare.
    For people who she said the premiums are not skyrocketing, 
I don't know about her district, but in my district, people are 
finding that their premiums are going up at a substantial rate. 
They would tell me--and they do on a regular basis--that it is, 
in fact, skyrocketing.
    And then she said that it was working. Look, for my folks--
and I represent what I call the cornucopia of Virginia, that 
part that comes out of the deep southwest and spills out into 
the rest of the State.
    We border the states of North Carolina, West Virginia, 
Tennessee and Kentucky. We have split cities in two, Bluefield, 
Virginia/West Virginia, and Bristol, Virginia/Tennessee, where 
the main commerce street is State Street and the line is right 
down the middle of the main street of commerce.
    But you can't go to a hospital if you live on one side of 
State Street that is more than one county out if you are in the 
Obamacare plan. You can't go to a hospital in West Virginia.
    If you live in Martinsville or in Galax, Virginia, you 
can't go to Bowman Gray in North Carolina or Duke any longer. 
You want to say a system is working when people have been able 
to go to teaching hospitals in the past and now they have to 
drive a lot farther to get to one because of Obamacare. It is 
not working.
    I submit that the gentlelady in that case was wrong as 
well. And I yield back.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the gentlelady from Washington, Cathy McMorris 
Rodgers, for 5 minutes for questions.
    Mrs. McMorris Rodgers. Thank you, Mr. Chairman. And I 
appreciate you both being here today.
    I wanted just to reinforce before I went to my question 
that the administration didn't make a pledge to prevent 
fraudulent payments.
    The law states that only certain individuals are able to 
qualify for subsidies and that they must be able to prove 
citizenship. And it is just another example of the 
administration ignoring the rule of law.
    My questions. First, the secretary has refused to release 
any more enrollment reports after the one they released in May.
    Do you think continuing the issuing of these reports to 
Congress and public would be helpful?
    Ms. Daly. I am not certain that the secretary is compelled 
to do so under any law or anything of that----
    Mrs. McMorris Rodgers. Do you think it would be helpful?
    Ms. Daly. I think it would be helpful.
    Mrs. McMorris Rodgers. OK. Thank you.
    After your analysis of the Federal marketplace and the two 
state marketplaces, do you think these exchanges are able to 
start reporting on who has actually been paying their premiums?
    Ms. Daly. I am sorry. I am not in a position to answer that 
at this time on the current status of what is going on at the 
marketplaces.
    Mrs. McMorris Rodgers. Do you know how soon we will have a 
sense as to who is actually paying their premiums in these 
exchanges?
    Ms. Daly. Well, we do have a variety of work that is 
planned and underway looking at further operations of the 
marketplaces, but I think we are going to be looking at the 
state marketplaces.
    We have already got that work started on the ones we had 
not already reviewed, and that work is going to be coming out 
probably sometime in the winter and spring of next year. And it 
could be--because there are quite a few, there is a number of 
reports that will be coming on that.
    Mrs. McMorris Rodgers. Is it the goal to better clarify 
actually who has been paying premiums and not? Is that going to 
be part of the goal?
    Ms. Daly. Well, I think who is paying the premiums on the 
insurance--we are looking at this time at how the premiums that 
are being paid--if they are going to the right insurers.
    But whether the insuree, the person that has gotten the 
insurance, is making their premium payments is not an issue 
that we had focused on at this time.
    But we would be glad to work with your staff to understand 
more about some of the implications surrounding that and see if 
we can get the resources to work that into our work plan.
    Mrs. McMorris Rodgers. Now, I know that your report focused 
on the Federal marketplace and the State marketplaces in 
Connecticut and California.
    However, I represent Washington State. And I was curious as 
to the extent of OIG's office and their monitoring of the State 
exchanges beyond California and Connecticut.
    Recently the Washington healthplanfinder--that is our 
exchange--had to explain to customers why some of them received 
an August invoice for twice the amount they owed.
    Now, you think about the impact on the middle class and the 
uncertainty that they face and the confusion that they continue 
to face and whether or not they are paying double their 
premiums or not. Others received no invoice. And some received 
an invoice with a zero balance, even though they owed a monthly 
premium.
    So are there procedures in place in Washington and other 
State marketplaces to quickly remedy these types of errors?
    Ms. Daly. Unfortunately, our work hasn't looked at that 
particular issue at this point in time. So I am sorry. I can't 
respond directly to your question.
    Mrs. McMorris Rodgers. Well, is the Office of Inspector 
General ever going to look at this question as to who is 
actually paying these premiums and whether or not it is 
accurate?
    These are hardworking middle-class families quite often 
that are in need of health insurance, are trying to figure out 
how to stretch their paychecks to pay for oftentimes increasing 
premiums.
    Are we ever going to assure them that they are actually 
paying accurate premiums? Or how are we going to address when 
there is a double bill and those kind of issues?
    Ms. Daly. Well, those are important issues. And again, we 
would be glad to work with you and your staff to help see if we 
can design some work that would be able to address those areas 
of concern.
    Mrs. McMorris Rodgers. So my final question.
    What is going to happen to someone when they are either 
confused or they accidentally don't pay or if they pay double, 
whatever the situation? Are they going to be cut from coverage 
or will they receive a refund? How is this going to be 
remedied?
    Ms. Daly. I am sorry. If you could just help clarify for 
me----
    Mrs. McMorris Rodgers. OK. My question is: You are an 
individual. You have either been charged double or maybe you 
accidentally didn't pay. How is this going to be remedied?
    Ms. Daly. Right. I am just not positioned to respond to 
that today simply because our work hasn't focused in that 
particular area as yet. So----
    Mrs. McMorris Rodgers. Is there a plan to ever address 
these questions?
    Ms. Daly. I just don't have any information available for 
you at this time, but we would be glad to try to get back with 
you on that.
    Mrs. McMorris Rodgers. And the weeks go by and individuals 
are out there still looking for answers, too.
    Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentlelady.
    I now recognize the gentleman from Georgia, Dr. Gingrey, 5 
minutes.
    Mr. Gingrey. Mr. Chairman, thank you.
    I haven't been here for the entire hearing because we have 
one going on concurrently downstairs, very important as well, 
but the little bit that I have heard since I have been here 
really disturbs me.
    My term in Congress--my 12th year, my 6th term--will come 
to an end at the end of the 113th Congress. I am looking for 
something else to do and I think I am going to apply for a job 
as an Inspector General in the Federal Government because the 
hours seem good and, obviously, there is no heavy lifting.
    Your responses so far, both of you, have indicated to me 
that you don't seem to really be on the ball in regard to 
Inspector-Generaling in a non-biased, unbiased way, which is 
what you are supposed to be doing.
    And when I talk to the people in the 11th Congressional 
District of Georgia, there is no way that I can give them any 
confidence that you are doing your job so that people who are 
undeserving, unqualified to receive part of the million--excuse 
me--trillion dollars' worth of subsidies in this ultra-
expensive program are getting to the right people.
    So let me specifically ask you--and you can comment on my 
comments as well--but the OIG's work has revealed a number of 
problems, as I have heard this morning, in CMS's process of 
verifying whether an individual is eligible for part of the 
estimated $1 trillion in exchange subsidies that will be spent 
over the next 10 years.
    And I would like to ask if OIG has found problems in 
resolving inconsistencies in the following areas: An 
applicant's Social Security number, an applicant's legal 
status, an applicant's income and all these income set-asides 
that exist by virtue of waivers in the Medicaid program and 
everything across the various and sundry 50 States and 
territories, other sources of coverage for an applicant, such 
as employer-sponsored income.
    Can you give us a little insight on any of that? And, for 
goodness' sakes, isn't that what you are supposed to be looking 
at?
    Ms. Greenleaf. Thank you for the question.
    In fact, when we looked at the marketplaces, we did find 
problems with their abilities to resolve inconsistencies in all 
those areas that you identified. The most common 
inconsistencies that were not resolved did concern citizenship 
and income.
    You had also mentioned Social Security number. There was 
some ability of the Federal marketplace to resolve those, but, 
in the end, the marketplace resolved very few.
    So these inconsistencies don't necessarily equate to an 
improper enrollment or an improper subsidy, but they are 
concerning, and we made recommendations that CMS resolve these 
and make its plan public on how and when it will do so.
    Mr. Gingrey. Well, have they made that public? You made the 
recommendations that they do so. But as far as you know to this 
point----
    Ms. Greenleaf. We are tracking their response. In their 
comments to our report, CMS indicated that it had implemented 
an interim manual process to resolve inconsistencies and was 
making progress, and we will be following up with them in a 
formal way to track their responses over the next couple of 
months.
    Mr. Gingrey. Well, I don't have any other questions.
    Ms. Daly, did you want to respond to that as well?
    Ms. Daly. No, sir. But thank you for the opportunity. I 
think Ms. Greenleaf did a fine job.
    Mr. Gingrey. Well, yes. She did OK.
    Honestly, Mr. Chairman, I think we would have done well 
this morning to have somebody from GAO here as well to tell us 
what kind of a job they think the Office of Inspector General 
is doing in regard to this program.
    Look, I am not picking on the witnesses. I mean, this is an 
opportunity for us to get information. There are people out 
there that need and deserve these subsidies.
    After all, the PPACA was put in place for the supposedly 15 
to 20 million people who through no fault of their own couldn't 
afford health insurance because of low income.
    And, yet, if we have got people gaming the system, other 
people are suffering because of it. They are not on the 
program, maybe.
    And then those that are not eligible for a subsidy, it just 
simply means that their premiums, their deductibles, their co-
pay, are going through the roof, and they are just going to 
throw up their hands and say, ``I am not going to buy into the 
system. I will pay the fine and go bare.''
    And I, as a physician, know how bad that is. We don't want 
that to happen. So that is why I am being a little hard on the 
witnesses, but I don't think too hard.
    And I thank them for being here this morning.
    I yield back, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman and now recognize 
the gentleman from Florida, Mr. Bilirakis 5 minutes for 
questions.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    This report that the IG issued is troubling to me. It is 
further evidence that the administration wasn't ready----
    Mr. Pitts. You want to pull your mic down a little bit.
    Mr. Bilirakis. Thank you.
    The 2.6 million unresolved inconsistencies exist because 
CMS's eligibility system was not fully operational. This means 
that people may have received a subsidy that they are not 
legally entitled to, or people could be receiving too much. 
When they file their taxes next year, people could receive a 
shock when they have to repay parts of their subsidy to the 
government.
    I knew that this system was not going to work. I knew that 
it was broken. Last year I introduced the No Taxation Without 
Verification Act. My bill would have prevented any tax 
provisions from being implemented until there was a working 
verification system in place.
    It wasn't enough that the administration had a process. 
They should have to meet certain metrics, in my opinion. 
Unfortunately and predictably, the administration made a mess 
of verification, in my opinion, and the entire back end of the 
Web site, just like they made a mess, in my opinion, of the 
healthcare.gov.
    Ultimately, this hurts the American taxpayer. That is the 
bottom line. And I do have a couple questions.
    In the OIG report, you recommend that CMS develop a public 
plan and set a deadline to clear the current backlog of 
inconsistencies and resolve the problems.
    This is the question: When does CMS need to have the plan 
and deadline release to address these pressing problems?
    And do you think it is necessary to provide time to test 
the verification changes in the system before the next open 
enrollment period begins?
    Ms. Greenleaf. We will be tracking--we have a formal 
tracking system for monitoring CMS's response to our 
recommendations.
    So over the next couple of months--I believe within 6 
months they have to have a formal plan back to us, though it 
could well be sooner.
    Mr. Bilirakis. Are you going to press them?
    Ms. Greenleaf. Yes. We will be following up both formally 
and informally. The Office of Inspector General leadership 
meets regularly with the CMS leadership.
    And this is a high-priority recommendation, and the bottom 
line is inconsistencies need to be resolved so we can have 
confidence that the determinations about eligibility are 
accurate.
    Mr. Bilirakis. Thank you.
    Next question. The OIG reports that applicants are given a 
90-day period to resolve inconsistencies after a notice is sent 
to a consumer.
    This 90-day period can be extended, generally, by the 
Secretary, but cannot be extended in instances involving 
citizenship and immigration status.
    Do you know if HHS is holding applicants to this standard? 
Can you answer that question first?
    Ms. Greenleaf. That was a little bit outside the scope of 
our review.
    And you are correct. There is the 90-day inconsistency 
period during which an applicant can lawfully enroll, and the 
inconsistency is supposed to be resolved during that time.
    But we did not collect information on how often it is being 
extended or how that is being managed at the marketplaces.
    Mr. Bilirakis. Ms. Daly, can you respond to that?
    Ms. Daly. No, sir. I am sorry. I can't add anything to that 
either.
    Mr. Bilirakis. Well, I have another question. I would like 
to get this information from you immediately, I mean, within 
the next couple days, please.
    Is HHS actually terminating coverage, if you can answer 
that, or withdrawing subsidies if an applicant has failed to 
provide documentation to address an inconsistency regarding 
citizenship or legal status within the 90-day period? Can you 
try to respond to that, please?
    Ms. Greenleaf. I think we will have to get back to you on 
that to try and answer that. I don't have that information.
    Mr. Bilirakis. So you are not sure?
    Ms. Greenleaf. That is correct.
    Mr. Bilirakis. Is that correct, Ms. Daly? You are not sure?
    Ms. Daly. Yes, sir. I am not certain at this time.
    Mr. Bilirakis. Please get back to us. This is vital. I 
really would appreciate it. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Pitts. The Chair thanks the gentleman.
    Now recognize the gentleman from Louisiana, Dr. Cassidy, 5 
minutes for questions.
    Mr. Cassidy. Hello. I am sorry to have come in late. So 
people may have asked my questions. I apologize.
    Looking at your testimony on pages 3 and 4, I gather a 
sample was done of California, Connecticut, the Federal 
exchange, a sample of 45.
    Now, as best as I can tell on Page 4, the second bullet 
point refers specifically to California. Verifying citizenship, 
7 out of 45, it was unclear that their citizenship was 
verified.
    I gather that is 15 percent of those in California who 
signed up we cannot confirm that they are U.S. citizens. Is 
that a correct reading of this?
    Ms. Daly. Yes, sir. That finding indicates that, of the 45 
applicants that we selected for sampling in California, 7 of 
those 45 did not have their information run through the system 
as it was supposed to occur.
    Mr. Cassidy. Now, I am told that California had roughly 1.5 
million people sign up through their Cover California exchange.
    So potentially 15 percent of those, or 225,000, were not 
citizens?
    Ms. Daly. I would caution against----
    Mr. Cassidy. Accept that.
    Ms. Daly [continuing]. Trying to extrapolate those results. 
The type of sampling that we did wasn't the type that you could 
use for extrapolation purposes. It was simply to provide a 
``yes'' or ``no'' answer. Was the action done? Yes or no.
    Mr. Cassidy. But it was a random sample, I presume.
    Ms. Daly. Yes, sir.
    Mr. Cassidy. So as a random sample, theoretically, 
representative of the whole--granted, maybe they just didn't 
provide--but, nonetheless, potentially as many as 15 percent of 
those who signed up through California were not citizens, 
potentially. Fair statement?
    Ms. Daly. Well, given the type of sampling that we have 
done, I can't make that extrapolation.
    Mr. Cassidy. There is a margin of error.
    Ms. Daly. Yes.
    Mr. Cassidy. There is a margin of error, but nonetheless--
so this being the case--wow--have you done a follow-up sample, 
larger and more statistically significant?
    Ms. Daly. At this time we have not had an opportunity to 
follow up with California on this.
    Mr. Cassidy. Now, Ms. Daly, that just seems to beg to be 
done. I mean, if it is a potential--granted, a small sample 
size with a large margin of error.
    But if 15 percent of the people may not be citizens, that 
actually seems like kind of moves up list of follow-up actions 
taken on this sample size. Am I missing something?
    Ms. Daly. Well, sir, I think it is really important to 
recognize that this was a system design issue, and I think 
California told us that they were following up to try to get 
that addressed.
    And I think that is an important point to make, that when 
there is a systemic issue where it is a problem with the 
programming----
    Mr. Cassidy. California actually has a vested interest in, 
frankly, not addressing this because the subsidy is coming from 
the United States taxpayer, not in general, not just 
Californians. So as I am also told, 90 percent of those who 
signed up on California exchanges received subsidies.
    Now, if that's the case, again, just back of envelope, that 
means over 200,000 people on the California exchange 
potentially are receiving generous subsidies and they are not 
citizens.
    Now, that seems more the purview of the Federal Government 
as an overseer as opposed to the Californians, who may not 
care. Again, am I missing something?
    Ms. Daly. Well, the point is that our sampling approach was 
more of a compliance sample in which you are either identified 
as yes or no, you meet that or do not meet that.
    Mr. Cassidy. I accept that. You have explained that 
methodology.
    But I am--we have got hardworking taxpayers who are barely 
making it and we were told by those who promoted this that only 
citizens would be allowed to sign up.
    Now, in a random sample size in California--which, if it 
was truly chosen randomly, statistically, that will probably 
represent the whole with a given margin of error--as many as 15 
percent of those aren't citizens.
    If I am a taxpayer in Louisiana, I am thinking, ``What the 
heck. We were told this would only be for citizens. Now my tax 
dollars are going to subsidize someone here illegally, 
potentially.''
    I guess I am wondering, does the administration--your kind 
of view of this--and I don't mean to overread--seems a little 
nonplussed. ``Yes. Might be. But we will trust the Californians 
to pull it together.'' And I say that not to indict, but only 
to observe.
    Again, am I wrong on this?
    Ms. Daly. Well, I think we are concerned, and that is why 
we have done the work that we have done to provide you, the 
overseers for this program, among others, the information that 
you need to provide that oversight.
    Mr. Cassidy. Well, I thank you for that.
    Ms. Daly. I think you know the challenges that the 
marketplaces were facing.
    Mr. Cassidy. I am almost out of time.
    I recognize that. But, nonetheless, the challenges the 
marketplaces were facing did not excuse them from executing the 
law, which is only citizens shall sign up.
    And it does seem as something that should require HHS to 
follow aggressively, if only to keep at least this measure of 
commitment to the American people, that only citizens would be 
allowed to do so.
    I am out of time. Thank you all for your testimony.
    Mr. Pitts. The chair thanks the gentleman.
    The Chair now recognize the gentleman from Illinois, Mr. 
Shimkus, 5 minutes for questions.
    Mr. Shimkus. Thank you.
    And thanks for coming.
    I am sorry I was absent for a lot of it. That is why I 
waited in line to hear some of the exchange and the questions.
    From the Inspector General's Office of Health and Human 
Services. Right? So you are doing an internal review of the 
signups, proper or improper, and you have proffered a report.
    And I think that is where some of the frustration is, is 
some of these things come out in the report. What would compel 
the HHS or CMS to rapidly respond to fix these deficiencies? I 
guess that is the concern.
    You are the OIG. All you can do is report. Right? You can't 
go to the new secretary or the former secretary and say, ``Act. 
Here's a major problem.''
    But I guess, from the tone of some of my colleagues, they 
are not convinced that there was red flags flying that this was 
a problem and that there may have been a delay.
    So let me go to the question. I mean, I am just trying to 
put my observation in the few minutes I have been here, trying 
to think through the line of questioning.
    So when CMS failed to put a fully operational eligibility 
system in place, it had--we believe it had major consequences.
    And I think your report highlights that, yes, there are 
some major problems when you don't have a fully operational 
system.
    We have learned that the verification process to resolve 
inconsistencies often did not start until May--right?--even 
though, in fact, it could be very likely that these 
inconsistencies contained in the applications submitted in 
October--is it safe to say that they languished for months 
without resolution?
    Ms. Greenleaf. May is outside the period that we report on. 
And during the period that we report where we say 2.6 million 
inconsistencies were unresolved is through October--October 
through mid-February for the Federal exchange.
    Mr. Shimkus. So we could say it languished through that 
period of time at least?
    Ms. Greenleaf. For that period of time, yes, they were 
unable to resolve inconsistencies, in particular regarding 
citizenship.
    Mr. Shimkus. Do you think that we can--you don't know for 
sure. But, again, going on some of the lines of the questions, 
is it safe to guess that some of these inconsistencies that you 
identified are still unresolved?
    Ms. Greenleaf. We don't have information to that effect. We 
will be tracking CMS's response and ask CMS to report back to 
us in our recommendations regarding----
    Mr. Shimkus. I guess that is part of this whole debate and 
a little bit of frustration.
    So we got the answer that there is an interim pamphlet. 
Right? But, I guess, isn't this compelling enough to say give 
us more information now?
    What kickstarts that additional review by you to see that 
there is not--that the inconsistencies that you raised based 
upon the February time frame--and maybe we assume May--that 
they are still not inconsistencies and that they have been 
resolved?
    Ms. Greenleaf. Well, we will be monitoring their response 
to our report and----
    Mr. Shimkus. Wait. Wait. Wait. That is the frustration, 
``We will be monitoring.''
    Are you monitoring? I mean, that is the problem. I mean, 
don't you understand? ``We will be.'' No. A lot of us think you 
should be. This monitoring should have been done, especially 
with these gross inconsistencies.
    Ms. Daly.
    Ms. Daly. Yes, sir. Thank you for the opportunity.
    I think that, you know, we will do--as my colleague here 
pointed out, we do follow up on our recommendations. And at the 
same time we already are beginning extra work out at the 
Federal marketplace.
    And as part of that we can be assessing whether--the status 
of addressing those inconsistencies that we currently are aware 
of. I would be very interested in learning the new processes 
that are in place. Of course that work is going to really----
    Mr. Shimkus. OK. So we are--please. I guess we would like 
you to try. Not wait. I mean, that is our frustration.
    These inconsistencies are as large as they might be, and we 
have had a long time. We want this present tense, not future 
tense. Does that make sense? It should be going on now.
    Aren't we coming right now to another signup? Right? 
Enrollment is coming.
    If we haven't fixed the original signup and the 
inconsistencies--we have identified the problems. We don't have 
follow-up. We don't know if they have been fixed.
    Aren't we at risk of having the same problem in the next 
enrollment? If they haven't addressed it, will we have the same 
problem, Ms. Greenleaf?
    Ms. Greenleaf. If CMS doesn't address our recommendations, 
we would be concerned that additional inconsistencies would 
remain unresolved, and that could lead to inaccurate 
determinations.
    Mr. Shimkus. OK. You have been very helpful, at least for 
my part. Just remember--I will leave on this, Mr. Chairman--
present tense, not future tense, and we would all be a lot 
happier.
    Mr. Pitts. The chair thanks the gentleman.
    That concludes the questions of the Members who are in 
attendance. There will be a lot of other questions from other 
members as well to follow up, and we will submit those to you 
in writing. We ask that you please respond promptly.
    I remind Members that they have ten business days to submit 
questions for the record. Members should submit their questions 
by the close of business on Wednesday, July 30.
    I have a UC request. I would like to insert into the record 
an article in the New York Times from October 16, 2013, where 
Secretary Sebelius is quoted as saying, ``I think we are on 
target. We are on track to flip the switch on October 1 and say 
to people come on and sign up.''
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. And the Ranking Member has a UC request.
    Mr. Pallone. Mr. Chairman, I would ask unanimous consent to 
enter into the record a letter from June 4 from Ranking Member 
Waxman to Chairman Upton.
    Mr. Pitts. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. Very interesting hearing. Thank you. We look 
forward to working with you to get more information.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
        
                                 [all]
</pre></body></html>
